G .
  ~:. u.s.
  ~f    (
             GOVERNMEN T PR I NT I NG OFF I C E
                  (I                I




                             ASHSS"1E'II r RlPORT
                            REPOR r NU'IBER 12-01




                      FEDERAL DIGITAL SYSTEM
             INDEPENDENT VERIFICATION AND VALIDATION
                    FIFTEENTH QUARTER REPORT

                                 January 18, 2012
                                                                          ,     <A



G:l):"   u.s.   GOV.RNMENT PRINTING O HI C.




          Date
         January 18, 2012
         To
         ChieF Technology Officer
         From
         I "spector General
         Subject
         Federal Digital System (FDsys) Fifteenth Quarter Ind ependent Verification &
         Validation (IV&V) Report
         Report Number 12-03


         Attached is the fifteenth quarter IV&V Report on the U.S. Government
         Printing Office's (GPO) development and implementation of FOsys. The
         Office of In spector General (OIG) contracted with American Systems to
         conduct an IV&V in accordance with methodology established by the
         Institute of Electrical and Electronic Engineers (IEEE) Standard 1012-2004,
         the IEEE Standard for Software Verification and Validation.

         American Systems provides quarterly observations and recommendations
         on technica l, schedule, and cost risks. Additionally, at (he end of each FDsys
         release phase, American Systems provides a su mmary program
         management report.

         The enclosed report is American Systems' quarterly report for the period
         March 11, 2011 to July 6, 2011. American Systems is responsible For the
         attached IV&V report and the conclusions expressed in the report. However.
         in connection with the contract, we reviewed American Systems' report and
         related documentation and inquired of its representatives. Our review
         disclosed no instances where American Systems did not comply, in all
         material respects. with contract requirements.




         K""'''9 AmUle, Inform,d I www.gllo.gov/olg
Chief Technology Officer
Report 12-03
January 1B, 2012
Page 2 of2


If you have any questions or comments about this report, please do not
hesitate to contact me at (202) 512-0039.




Michael A. Raponi
Inspector General

Attachment

cc:
Deputy Public Printer
Chief of Staff
Assistant Public Printer, Superintendent of Documents
Assistant public Printer, Operations
General Counsel
Chief Financial Officer
Chief Information Officer
Acquisitions Director
                                                                                      Enclosure



                         IV&V RISK MANAGEMENT,
                    ISSUES, AND TRACEABILITY REPORT
 TO:              Michael A. Raponi
 FROM:            David Il aro id
 IV&V OF:      I Quarterly Report (Amended     Final - Document Number 02-039)
 SUBJECT:         March 12.2011     July 6. 2011 Quancrly Rcpon
 DATE:            Janu,uy9.20 12
 CC:              Dan Rose, Margaret Brown



8ackgrtJlIIlIl:

This report presents the critica l technical , schedule. and cost risks identified for the Govcnlmcnt
Printing OfTice (GPO) Federal Digital System (FDsys) Program. Speci ficall y. it provides a high-
level overview of the key risks and issues that Independent Verification & Validat ion (IV&V)
has identified during the quarter ending June 30. 20 11.

This is the fifteenth (15 th ) IV&V Quarterly Report and covers the period from March 11.2011 to
July 6. 2011. The period covered by this Quarterly Report began later than scheduled because
the period covered by the previous IV&V Quarterly Report (fourteenth Quarterly) had been
extended to March II. 2011. The period covered by this IV&V Quarterly Report was therefore
extcnd{:d to July 6.20 11. due to the completion and submittal of an IV&V FDsys Requirements
Eva luat ion Task Report. This extension was discussed with and agreed to by the OtTice 0 f the
Inspector General (OIG).

During this reporting period, the FDsys Program Management Office ( PMO) completed the
deployment of four (4) Release 2 production build s. and prepared/ updated FDsys technical
documentation. The production releases arc summ;:lrizcd below along with the olher evcnts that
occurred during the third quarter of Fiscal Year (FY) 20 11 .

Referellces:
 a. FD.~:\'.\ Release 2 (1?2) Master Schedule. July 6.2011. (in SharePoint)
 b. IV&VQllarrer()I Risk Report, Final. March 14,2011
 c. Tra"sitiol/ Ma.\ter Plal/. January 2 1. 20 II , (in SharePoint)
 d. GPO:.. Federal Digital System Program Reviell', November 8. 2010

FD~ys   Program Mallagemellt Office (PMO) Stlmmary:

PMO Comelet;,,,, Plait S""""a,,'

The tasks and activities those arc required for the design and developmcnt of FDsys Release 2


                    FINAL ASSESSMENT REI'ORT
    CONTROLLED UNCLASSIFIED INI'ORMATION - I'OR OFFICIAL USE ONLY
                                                                                      Enclosure

have been in corporated into a Release 2 (R2) /v/asler Sehedlile that is maintained by the FDsys
Program Director. Release 2 has been split into six (6) Groups ( i.c., Groups A-F); each Group
hav ing been allocated desired features and capabilities. Original planning had Release 2
separated into four (4) Groups; however. due to requests from other government agencies for
new Co ll ectio ns (i.e., Cost Accounting Standards (CAS) and Coastal Zone Informatio n Cent er
(eZIC». the number o f Groups ha ve increased. These new Co ll ections were requested by the
Office of the Federal Register and Natio nal Oceanic ;md Atmospheric Ad minist ration (NOAA)
respectively. The Release 2 Masler Schedule currently co ntains the tasks and activities through
Group D which is slat ed to be co mplet e in the November 20 11 timcrrmne.

The Release 2 Master Schedule is being updated ;:md ll1<1int<lincd o n a timelier basis than the
Release I Master Schedule. Start and Finish dates are being accu rately monitored as is thc
Ilercent Co mpl ctc. Currently, the FDsys Program is working on the des ign and developmcnt of
Releasc 2 Group C which has been split int o two (2) pm1s. The main task ing for Part I is:

    •   Dcvelopmcnt o ra Pi lot/refresh for tile int ernal search eng ine for Documenturn;
    •   Additio n or new Co llect io n named ECON I; and
    •   Work o n the Integmted Library System ( ILS) (re<luircmcnts gat hering and design).

The fo cus on Part 2 is the:

    •   Completio n of the Pilo t/refresh lor thc internal search eng inc tor Doeumcnlum;
    •   Additio n ofa new rendition (Government Manual); and
    •   Some Program Tracking Reports (PTR)lbug fix es.

Trallsition Plan S ummary:

As reported in the last 111&11 Quarterly Repon (Mwr:h 201/), remaining tasks and activities 10 be
accomplished in order to sunset GPO Access were being maintained in a 7i·{IIISifioll Masler Pia"
that was being monitored/ maintained by a GPO Tmnsition Team. The Transition Master Plan is
ava ilabl c on Share Point : however. the document has not been maintained, i.e .. initial due dates
that were once schedu led and missed ha ve not been updated and the document still has a January
20 11 dat e. Note tlmt because the Transition Master Plan is not being maintain ed and has not
changed in nearly six (6) months. IV&V can not det enninc the status o f the acti vities and tasks
contained thcrein.

Current Relea.,·e Summ a,..l:

The FDsys I)MO is currentl y working on Release 2. As reported in the GPO·... Federal Digital
System Program Reviell', " Release 2 is going to be implemented ovcr four (4) major releases"
with functio nalit y mapped to Groups A through D. Si nce the initial planning, two (2) additional
Groups h;wc been added, i.e., Groups E and F. Due to the work be ing performed o n the
development tasks and activities for ncw Co llect ions. i.c., Constitutional Authorit y Statcmcnts




                                                                                       Page 2 01'20
(CAS) and Coasta l Zone Inlormation Center (CZIC), the design and development of FDsys
features and capabilities delineated in the FD,\:ys Requ;remellfs DI)CIWl e ll t have been further
delayed. In addition 10 working on the new Co llections, the FDsys PMO has been fixing
Program Tracking Reports (PTRs) that were assigntxl to each Group.

Release 2.2.0.07

The deployment of Release 2.0.2.07 occurred on June 7. 2011. This build consisted of the
Coastal Zone Information Center (CZIC) Co ll ection; enhanced Documcntum workflow; revision
of a form for gpo.gov; and a link for Coconino Rural Env ironment Corps/Constitutional
Authority Statemcnts (CREC/CAS).

Release 2.1.0.04

The deployment of Release 2.0.1.04 occurred on April 29. 2011. This build consisted of'thc new
Constitutional Authority Statements (CAS) Collection and, PTR fixes for the Package Creation
Tool and format validation.

Relea,\'e 2.0,2,02:

The deployment of Release 2.0.2.02 occurred 011 March 24, 2011. This build consisted of an
Emergency patch and redeployment 0 f the Documentum component that includes the need to
rollback code that delctes folders not having packages in them.

Relell.\'e 2.0.1,02:

The deployment of Release 2.0.1.02 occurred on March 22, 20 11.           This build consisted of
twenty-one (21) PTR tixes for Interim Release A.



IV& V Actiw'/V Summar),:

Key IV& V Effort...:

IV&V continues to meet on a bi-weekly basis with the FDsys PMO Program Director in an
exchange of techn ica l i.md progral1ll1l<ltic information. These meetings provide insight into the
FDsys Release activities and tasks that canno t always he found on a SchedulclPlan. The
meetings also provide the IV&V group an opportunity to express ideas and request
programmatic and technical documentation that may be availab le. and will enablc IV&V to
complete its own plan/ schedule, activities and tasks coinc iding with those in the FDsys Plan.




                                                                                      Page 3   ono
/V& V Reports:

For Release 2. IV&V submitted five (5) Task Repo rts to the OIG during the time frame covered
by this quarterly report . These tasks rCJX>rt s evaluated the:

    •   FDsys Master Test Plan;
    •   FDsys Program Management implementation;
    •   FDsys Continuit y o f Operatio ns System Design Document :
    •   FDsys Co ntinuit y of Operations Testing (i ncludin g Test and Performance Plans): and
    •   FDsys Requirement s Eva luation.

I. Technical Risks Identified

Since March 201 l,t he PMO has co ncentrated it s efiorts on thcdevelopment of Release 2 Groups
A. B. and C which includes activities and tasks related to developing new Collections. CAS and
CZ IC and fixing PTRs that were mapped to the Release. These two (2) co llections were not part
of the orig inal functionality for Release 2: based on thc information provided in the GPO's
Federal Digital System Program Review. Rather, this development work was the result of
requests made by other Government agencies, specifi ca ll y, the Office orthe Federal Register and
the Natio nal Oceanic and Atmospheric Ad ministration. Jf o ut side agency rC<llIcsts are rC<luirc<1
to bc acted upon by the FDsys PMO, cost overruns and schc<lule slips, based on documcnted
rC<luirements, will continue to occur. IV&V bcl ievcs that th is is an agency-level issue that needs
to be rev iewed and reso lvcd.

The FDsys PMO is current ly working o n the Re lease 2 Group C effort that is currently pl anned
to be ready fo r test in Aug ust 20 I I and includes a new Co llectio n (i.e., ECON I) . Lastly, thirty-
six (36) PTRs are cUlTently assigned to Release 2 Group C.

Acco rding to the FDsys Program Manager. there are fi ve hundred eig ht y-one (58 1) PTRs
cU lTently with an Open status in ClearQucst. The FDsys PMO recently co nducted a rev iew of all
open PTRs to dctennine if there wcre any duplicates that describe the same problem and PTRs
that no lo nger applied due to being overco me by events. The FDsys PMO identified ninety (90)
PTRs for closure based o n this review. This effort and the plannt.·" deplo yment of Release 2
Group C have the potentin l to rc<iuce the PTR co unt to four hundred fift y-five (455). In
co ll aboration with the FDsys PMO. future IV&V Quarterly Reports will includ e a breakdown o r
the PTRs depicting the percent age of open PTRs by defect, non-de fect. and en hancements.

2. Schedule Risks Identified

There is thc potential for schedule risks associated wit h IV&V eval uation findings from the
IV&V Task Reports.

The FDsys Program continues to work o n o utside government agency requests for new
Co llect ions resulting in the delay of design and develo pment ofFDsys based on documented



                                                                                          Page 4 o rzo
requircmcnts. The re-prioritization to accomplish this additional tasking continues to push the
schedule out resulting in delayed functionality not on ly to FDsys but also to the stakeholdcr
commu nity. In addition to these schedule risks, the GPO risks the alienat ion of a once
sUPl>ortive stakeholder communit y due to thc continued delay o f anticipatcd and promised
functionality.

Also notc that problems continue to be found with the deployed FDsys: id entified since the
initial Beta deployment in March 2009. The open PTRs (581) referenced in Scct ion I above arc
act ively being worked: however. evcn with the reduction of PTRs due to the completion of
Release 2 Group C and rcccnt idcntilication and tagging of duplicatc and no longer applicable
PTRs, over four hundred (400) PTRs will sti ll be open. These problcms require thc PMO to
divert resources away iTo m Release 2 tasks and activities resulting in schedu le delays.

3. Cost Risks Identified

Thcre are cost risks inherent with the technical issues id enti fied during thc March to July 201 1
timelTame. While the FDsys Program continues to make progress w ith the design and
development of Release 2, the Program still sufTers Irom not using proven earned value ana lysis
to track schedu le .md cost. This is especially critical because significant enort has been di vcrted
away 1T0m performing actua l FDsys design and development wo rk based on the FDsys
requircments. Instead, the FDsys Progra m often seems rC<luired to respond to rC<luests Irol11
other govenlment agencics for new Co llections: thus, diverting resources once allocated to the
comp let ion of FDsys. These additiona l requests force the FDsys Program to incur additional
costs for completio n o f the design, development. testing, and im plement ation of the FDsys.

4. Evaluate Master Test Plan

During this quarter, IV&V pcrtomuxi an evaluation of the FD.\ys Master Test Plan to dctcmline
if the content of the document provides a definitive testing stratcgy for testing to be
accompli shed in Release 2. The intent of a comprehensive test stratcgy and its subsequent
implemcntation is to ensure the stabilit y, sustainabi lity, and availability of the FDsys. Test
managemcnt and execution is a critica l function that encompasses rC<luirelllents ver ificat ion and
validat ion, management of test processes, procedures. und test results. change management.
software bui ld process. and morc. The GPO FDsy.\' Master Test Plan is an cnd-to-cnd strategy
that prescribes a botloms-up testing approach where cach subsequent test phase builds upon its
predecessor. T his methodology provides assurance that the FDsys systcm will sat isfy the
requirements of the GPO PMO and its stakehold ers.

Results from this eva luation rcvea lc<1 th at the currcnt versio n of thc FDsys Master Te....' PIa"
lacks detail and co nsistency. Little discussion on the stratcgy fo r conducting Per/onmmcc
Testing. Regression T(!sting. and 508-co mpl ia nce testing is provided. Security Test and
Eva luation (ST&E) and Certi ficat ion and Accrcditation (C&A), whi le highlighted therein is
largely ignored: no co nnect io n to the certi lication and final acccptanceofFDsys is ever




                                                                                       P.ge 50f20
provided. Failure to e1early define that strategy puts in jeopardy the integrity (i.e.. stability,
sustainability, and availability) of the tinal deployed system.

5. Evaluate Program Management

IV&V reviewed the FDsys Program Management function this quarter. The goal of the
evaluation was to analyze the current GPO program management practices, asscss their
effectiveness, and provide potential recommendations for improvements moving forward with
Release 2 ofFDsys.

The role of a Government PMO on an Information Technology (IT) project is multi-faceted.
Managed by an experienced Program Manager (PM). the PMO is an organizationa l entity
established for the purpose of centralizing programmatic decision making; thcy arc the sole
authority for decision making on the project. The PMO, though comprised of numerous
engineering and programmatic disciplines, coordi nat es all internal program <]ctivities and is
ultimately responsible lor management of engineering and programmatic entities under its
domain. The Government PMO is charged with execution of the project to a successful
completion in accordance not only with the contract, but also to the o rganization's strategy.
plans. processes and procedures. Through centralized management and coordination. the
Government PMO provides executive leadership and is responsible for supporting entities that
compri se the PMO including:

   •   Program Management;
   •   Risk Management;
   •   Requirements Management;
   •   Configuration Management:
   •   Document Management;
   •   Quality Management;
   •   Engineering Management;
   •   Test Management, and Contracts Management;
   •   Operationsn-raininglSecurity Specialists; and
   •   Organizational Change Management.

Results of the assessment indicatc that while there was some improvemcnt in this area sillce the
last IV&V eva luation. many of the program management practices previously recollll1lended in
past IV&V reports have not been implemented. To ensu re that the Program has insight into
potential problems resulting in cost overruns <md schedule delays it has been recommended thaI
the FDsys Program initiate the use of earned va lue analysis including variance analysis at the
project level. Other reeomll1cndat ions include the timely update of the Masler Schedule, conduct
of periodic program management reviews, development of a Quality Assurance program,
development of Quality Assurance Survei llance Plans to be used by the Program to monitor
contractor performance, and the enhancement of the risk management proeesscs.




                                                                                     Page 60f20
6. Evaluate COOP System Design Document

The tas k assessed the GPO FIJ.\ys COOP System Design Documellt (SOD) to determine if the
content of the document provides a dcfmitive design, development, and implementation strategy
for the COOP to be used as the Primary FDsys backup in the event of a failure to the FDsys
Production Instance. The intent of this strategy and its subseq uent implementation is to ensure
the availability of the FDsys system and continued access to the electronic records orall three (3)
branches of the federal government in the event of s uch a failure.

The result s Of lhc evaluation dctcnnined that the current version of the document , though much
improved from earlier versions. still contains inconsistencies that require update.          The
requirements listed in Appendix A of the document are a combination of new COOP
requirements ami a listing ofrequircments taken from the FDsys Release I Master Requirement s
List. To ensure that the FDsys COOP Instance has been completely tested, COO P-related
requirements listed in the Release I Master Requiremellts. Release I Master Requirement""
RTf/M. and FD.~)'s COO P SDD must be in agrccment. Not testing all requirements due to
inconsistencies between documentation could result in the COOP Instance not satisfying all of its
expected capabilities and, problems (Ialent or new) may be missed during the tormal tesling
because of inadequate and/or missing lest cases.

7. Evaluate COOP Testing

The COOP testing effort is a critical component of the test program for FDsys Release 2:
enabling the sustainability and availability of federal government documents in the event of
f..,ilure and/or preventive maintenance downtime ofthc FDsys Production Instance. The goal of
this eftort was clear: to detennine if the FDsys COOP Instance satisfied its requirement s to
ensure that FDsys can be fully recovered in terms of implementation. function. and perfonnance.

The evaluation assessed both the system and performance testing that was performed for the
COO P Instance. The system test result s were quite po sitive demonst rating that FDsys
Production Instance could be manually failed over to the COOP Ins tance. The test further
demonstrated thai the COOP Instance was able to mimic the Production Instance and had the
ability to tailback to the Production Instance. These results, however, arc skewed because many
of the COOP requirements were not ade<luntely verified. Many COOP requirements were
verified using the Analysis verification method ; however, the test cases do not provide speci fic
steps taken to verify these requirements; using generic rcrercnces instead.

The results of the Perfonnance testing that was performed are also mixed . The actual COOP
Performance Test Plan listed but two (2) requirement s. one (I) of which that failed. It is unclc<lr
to IV&V why o nl y two (2) pertonnance requirements were part of this testing si nce there are
numerous other COOP performance requirements. The requirement that faik. d testing indicates
that the COOP Instance must provide the capability ' '(0 maintain required response timcs when
there are 20,000 concurrent users performing a varicly of functions rcpresenting peak lime
operational use (RD-38)."
The inabilit y of the COOP Instance 10 achieve the 20,000 concurrent user requirement is
potentially problematic once GPO Access is officially retired : where the number ofFDsys users

                                                                                       Page 7 of20
will increase exponentiall y. Though this requirement was not met, the effect is mitigated by the
fact that both the FDsys Production and COOP Instances have been able to achieve 10,000
concurrent users and easily meet RD-42 which states that "71,e system sllall provide a respollse
lI'ithin 2 seconds (!{ a IIser initiating an operatioll lI'ithill FD.\ys of the GPO Intranet." However,
the FDsys PMO must determine how to resolve this issue before GPO Access is retired,

8. Evaluate FDsys Release 2 Requirements

The evaluat ion of the FDsys Release 2 requirements was focused on the actul.l 1 wording and
intent of the rc£luirements themselves. The review focused primarily on whether requirements
were well formed (i.e., und erstandable), unambiguous, testable, and whet her or not the
requirement was a compound rc£luiremenl. Requirements thm fall into any oflhese categories
make it more dillicult to tcst which co uld lead to technical, schedu le, and cost risks in the
dep loyed system.

The results indicate that the initial requirement sci has remained largely intact wit h vcry few
changes since the Beta release nearly three and one half(3 Yl) years ago. While it is unlikely that
a major overhaul of the requirements will occur at this po int in the project. the PMO should give
strong co nsiderat io n to reviewing the individual requirements allocated per Release and Ii xing
them as appropriate.

It is also important to note that the I;V.\ys Reqlliremel1ts Master List did not agree in the number
of Release 2 requirements when compared to the FD.,ys l?eqllirement,\' Master List Reqllirements
Traceability Verijic:atiol1 Matrix.

Not fixing the issues with the requ irements co uld lead to dillicultics in testing; in ability to
determine the capab ilit ies in the various increments; the system not performing as expected;
potential cost overruns; and co ntractual dispute.

    I. Difficulty in testing the system - Requirements arc difficult 10 test if they are found to
       be vague. compound. or not well-structured. Also . inadequate tcsting orthe system cou ld
       result in prob lems and issucs that could alTect the ava ilabilit y o rthe system and its ability
       to perfonn as int ended .

   2. Inability to determine the cllp:tbilities of the various incrcments - Problems with
      requirement allocatio n and numbering (due in part to the fl atten ing of the requirements
      set) make it difficult to determine what funct ionality the developer is claiming is includcd
      in the various releases, which in tum makes testing and verifi cat ion of requirements
      difficult.


   3. System may not fUllction as expected/ required - Ambiguous requiremcnts have the
      potential to result in misunderstandings between GPO and the develo per. further resulting
      in the system being built incorrectly.




                                                                                          Page 8 0f 20
    4. Cost overTuns - Problems with requiremcnt s often lead to poor design and poor
       implementation, which often lead to sched ul e and cost overruns. It is incrementa lly less
       expensive to fi x a problem at the requirements stage than in subsequent stages of
       development.

    5. Contractual issues · The requirements document and the requirements there in usually
       represents contract ually-binding documents between GPO and the developer. In the
       event of a disput e, the developer will frequently cit e the requirements as to what they are
       required to build; therefore, it is important to have clear. accurate requirements.


9. Recommendations

Recommendations from IV&V evaluat io ns (i.e., Task Reports) performed during the third
quarter in Fiscal Year 201 1 arc provided below. Note that a number orthe recommendations
be low were previously repo rt ed in prior IV&V Task Rel>ortS.              A number of these
recommendations were closed bas<..'CI 011 the PM O response to implcment the changes going
fo rwn rd into Release 2: however, ns the findin gs (fro m the IV&V Reports) indiciJle.manyofthe
sallle problems and issues continue to persist in the FDsys Program.

FDsy.. MWiter Test Pia,,:

    I. Update the GPO FD.\vs Master Test Plan to convey a comp lete and comprehensive
       strat egy that will delineate, define, and describe the testing approach to be imp lemented
       for allievelsiphascs of testing thHt wi ll be conducted o n the FDsys.

Managemenl's Response. C oncur. Manngel11ent plans to make the reco mmended adjustments
to the FDsys Master Tcst Plan by 2/ 1/2012.

Evaluation of Management 's Response. Management's pl anned action is responsive to the
recommendation. The recommendation is resolved but not yet implemented and wi ll remam
opcn for reporting purposes pcnding comp letion and confirmat io n o rthe planm"d
                                                                               . Hction.

PD.,'''''' Program A1allagemelll:

   2. Update the FD,\:,})s Program Mallagement Plan and initiate the use ofeamed va lu e
      analysis based on the ANSI-EIA-748-8-2007, Stat/dard/or Earned Value Mallagemenr
      Systems (EVMS).

Management's Response. Concur. Management stat<.."(1 that the updat e of the Progmm
Ma nagement Pl an is being worked in co njunction wit h the proposed and gradual integration of
Earned Value Management processcs.

Evaluation of Management's Response. Management's planned actio n is responsive to the
reco mmcndation. The recommendation is rcsolved but not yet implemented and will remain



                                                                                       Page 9 of 20
open for reporting purposes pending completion , implementation, and contirmation of the
planned action.

    3. Update schedu le comp let ion dates and percentage co mplet e data in the Release
       Schedules.

Management's Response, Concur. Management slated schedule completion dates and
percentage complete data in the Mastcr Schedule is being reviewed and updated.

Evaluation of Management 's Response. Management's planned action is responsive 10 the
recommendation. In the past, the Master Schedule data has not always been availab le on
SharePoint for IV&V to review. We request that Master Schedule data be kept current On
Share Po int in o rder to facilitatc IV &V's timely review. The recommendation is resolved but not
yct implemented and will remain open for reporting purposes pending completion and
con firm ation of the planned action.

    4. Conduct more frequent intemi.ll Program Management Reviews to include FDsys Project
       personnel and stakeholders.

Ma nagement's Response, Concur. Managcment stated that intcmal program managemcnt
reviews will be conducted on a feature developmcnt basis with relevant stakeholders. and that a
more defined schedule will be estab lished to provide stakeholders with an opportunity for
participation in reviews.

Evaluat ion of Management's Response. Managcment's planned act ion is responsive to the
recommendation. The recommendation is resolved but not yet impl ement ed and will remam
open for reporting purposes pending completion and confirmation of the planned action.

   5. Develop and implement a Quality Assurance progmm:

           a. Note '''a' Ihe DIG prel,iolls(,' closed a prior reC(}IIIIIWIlt/alitm (09-03-10, jN""
              /V& V Fourt" Quarlerly Report) Oil Ihi.\· subject bused 011 havillg received
              IIotificUli(}l1 (i.e.. em uil November 2010) '''al U positioll de.'I·criptioll "'U.\· beillg
              delleloped (for a Quality A,\'surallce Director POSilioll). The positioll de,ticriptioll
              ",a~' 10 he IIsell jor the expres.\· illtellt 0I"irillg qualified per.w"IIIel jor ,"at role.


Management's Response. Partially Concur. Managcmcnt stated that IT&S has hired a
Quality Director to oversce and manage Systems Testing and Co nfiguration Management.

Evaluat ion of Management's Response.            Management was partially responsive to our
recommendation. While hiring a Quality Director is the appropriate first step in deVeloping a
Quality Assurance program. management's response does not address whether a Quality
Assurance program for FDsys will be developed and implemented . We request that managemcnt
provide addit ional info rmation to clarify whether an FDsys Quality Assura nce program will be
developed and implemented.



                                                                                          Page 100f20
    6. Develop and implement a Quality Assurance Surveillance Plan to oversee contracted
       work effort; to include designating existing slaff or hiring expert ise 10 support the GPO
       PMO in moniloring Ihe contracted work effort.

Management's Response. Partially Concur. Working with lhe office of the Chief Human
Capita l Officer. management agrees that an acqu isition-based Program and Project Management
training curriculum is important for business units working in conjunction with Acquisitions that
develop. specify. implement, and administer programs heavily dependent on information
technology. Over Ihe span oflwO years (i.e. , by 1 July 20 13), all such Program Managers will be
certified al Federal Acqu isitio n Certification for Program and Project Managers (FAC-P/ PM).
Enlry/Apprenticc, Mid-Level/Journeyman, o r Senior/ Expert, based upon PG grade level, in the
spirit 0 f the Ollice of Federal Procurement Policy (OF PP) policy memorandum daled April 25,
2007, dependent upon avai lable funding over this timeframe for necessary approval. This
recommendation and our response docs not involve or concern the IT Quality Assurance
program (Systems Testing and Configuration Management) in any way.

Eva luation of Management's Response. Management's planned action is partially responsivc
to the recommendation. To clarify, thc recommendation isn't suggesting that the QASP be tied to
the actual QA Group: however, given the history of this program and the difficulty on the
pro&rram with contract managcment, the QASP or equivalent would be a useful tool to help
Program and Project Managcrs manage the contraclor(s) whether they (Program and Projcct
Managers) were FAC-P/PM) certified or not.

   7. Develop and implcmcnt an organizationa l change management prof,rram.

Management's Response. Concur. Management stated that GPO is cx.amining opportunities
to institute a governance model to provide agency-level direction and oversight, with
improvements in documented change-contro l processes.

Eva luation or Management's Response. Management's planned action is responsive to the
recommendation. The rccommendation is resolved but not yet implemented and will rcmam
open for relXlrting purposes pending completion and con firmation ofthe planned action.


COOP S,ls/em De.o,;;gll Document:

   8. At this siage, the FDsys COOP Instance is considered to be operational; however, to
      ensurc that key requirements have bcen add ressed by the test ing, Ihe FOsys PMO must
      take steps to resolve the requircment discrepancies to ensure that all required testing was
      actually performed o n the FDsys COOP Instance. IV&V recommends that the Release /
      Mosler Requirements. Nelease / Master Reqlliremel1f.\· RrVM and the FDsys COOP SDD
      be reconciled to ensure consistency and to veri fy and va lid ate that all FDsys COOP
      re<luirements have been satisfied.

Mnnagement's Response. Concur. GPO will ensure that the FDsys COOP SOD does contain
all the relevant requirements. The PST Office will take the lead on planning for this. Steps


                                                                                   Page II of20
taken to perform testing on the FDsys COOP Instance will be revisited in terms of
documentation. The Release I Master Requirement s ·document has changed over time based
upon shifting stakeholder requirements and witt be revis it ed and updated through stakeho lder
review discussions. Requirement s that are added, modified , or deleted will be documented, and
wi ll be tested as part o f COOP processes.

Eva luation of Management's Response, Management 's planned aclion is responsive 10 the
recommendation. The recommendation is reso lved but not yet imp lemented and will rema in
open for reporting purposes pending co mpletion and co nfirmation of the planned action.

COOP Te,'iI;,,!!:

    9. Verification of Functional requirements should be performed using the Demonstration
       and/or Test verification methods. The usc o f tile Analysis verification method sho uld be
       used sparingl y and only when requirement s can't othef\vise be tested or demonstrated.
       When the Analysis verification method is used. to simply cite text in a design document
       is no t sufficient to ensure that requirements have actually been verifi ed. As with Test o r
       Demonstration method s, the test case should have steps that indicatc how the requirement
       is actually be in g verified. There needs to be an explanation describing/delineating how
       the design documentatio n for example call be used to verity a particular requirement. i.e.,
       verifi cation steps need to be included in the test case.

Manllgcment 's Response. Pntially Concur. The FDsys COO P instance was tested by the
FDsys PM O team. The FDsys COOP instance at the backup sit e (ACF) served as the production
instance during February 16·22, 20 11 (the primary system was 110t accessible during that lime),
to ensure that the systcm co uld handl e FDsys rC(luiremcnt s. GPO does no t agree, as the
recommendation seems to suggest, that every single requirement must be explicitly tested on a
COO P instance of any application in cluding FDsys. The FDsys COOP test conducted was
witnessed by IT&S STB, and the test plan, report and result s were later rev iewed by IT&S IT
Secu rit y as part of the C&A. The results indic.1ted that the COO P instance prov id es a
reaso nabl e, acceptable contingency instance lor FDsys o peratio ns when the primary system is
oul of service. The FDsys tea m and GPO busin ess managemcnt explic itly accepted the
fu nctional and o perational capabilities of the FDsys COOP instance. Since that time, in order to
support a re-indcx activit y on Production servers, the COO P instance was utili zed as the public-
filcing site 1T0m July 16'1., 201 1 to July 191h , 20 11 . The primary system was not accessible at this
time. This COO P event was a planned maint enance act ivity lor the Production instance. COOP
procedures were used to initiate failover and f~l ilb ack. Therelore, GPO heli eves that the FDsys
COOP instance was adequately and reasonably tested and no fun her testing (beyond normal,
routine periodic co ntingency testing on an annual basis) is required or necessary to meet GPO
directives and busin ess requirement s.

Eva luation of Management's Response.          Management was partially respon sive to our
recommendation. The COO P testing documentation used the Analysis verification method
where testing supposed ly had been perfo nned . Because o f this, IV&V questioned the usc of
Ana lys is rather than Test or Documentation where requiremcnt s could have actually been tested
wit h littlc to no cost or disruption . IV&V 's point in the reco lllmendation is that the


                                                                                         Page 12 of20
doculllcntation nceds to reflect the correct verification method and a link to thc results and test
cascs. Simply ;]ssigning the Ana lysis verification method <'lI1d referencing a document is 110t
suflicientto substantiat e that the requirements were veri fitxl using Analysis. We arc 110t averse
to using the Ana lysis verification method; however, stepslinformation on how the requircment(s)
arc being met also needs to be provided. We request that management provide further comments
on IV&V's concerns regarding COOP tcsting documentation.

    10. The FDsys PMO should develop a solut ion and/or workaround so that the FDsys
        Production Instance and the FDsys COOP Instance can meet the 20,000 concurrent uscr
        requirement (RD-J8) prior 10 the retirement of GPO Access.

Man:tgement's Response. Partially Concur. Management stated that the original FDsys
performance requirement for 20,000 concurrent users was 110t based on actual experience with
usage on the exist ing public site and did not adequately define the concept of"concurrcnt users" .
The operational experience with FDsys over the last two yea rs indicates 12.500 - 15,000
concurrent users based on the actual user profile of FDsys system logs. Therefore, GPO will
define the FDsys performance requirements by December 1.20 11 . Additionally. GPO will
continue to optimize FDsys for public usage through leveraging the Co nt ent Delivery Network
and updating the architecture lor web content delivery in FY 12. GPO will also continue to
monitor FDsys performance to ensure capacity meets user needs, and scale FDsys as appropriatc.

Evaluation of Management's Response. Management's planned action is responsive to the
recommendation. The recolllmendation is resolved but not yet implemcnted and wi ll remain
open for reporting purposes pcnding comp letion and confirmation of the planned action.

FD.ws Requirement.\':

    II. Before development begins on futurc relcases (or Groups within Releases), IV&V
        recommends the FDsys Program Management Oflice form a requirements Integrated
        Product Team (1 PT) or equivalent that cons ists of members of the system and so "ware
        eng in eering tcams, and mcmbers orthe test team. This IPT should evaluate and review
        each requirement to ensure they meet the criteria spec ified in IEEE standards and rework
        requiremcnts that were found to have issues as identified in the attachcd IIle.
        Additionally. the IPT should ensurc that the FDsys Requiremellts Master List and the
        RTVM arc in agrecment.

Management's Response. Co ncur. Current ly the IlMO and FDsys design and devc\opment
team work closely with the Systcms Tt..'St Branch (STB) at the start of a release to determine
requirements and fixes that will be addressed within thc rclease. The PMO will work with the
STB to formalize and document this process, with a focus on reviewing and evaluating thai the
associated rC<luirements are in a state to be fully testable by STB.

Evaluation of Management's Response. Management's planned action is responsive to the
recommendation. The recommendation is resolved but not yet implemented and wi ll remain
open lor reporting purposes pending comp letion and conlirmation of the planned action.



                                                                                    Page 13 01'20
            Appendix A. Management's Response




                         u.s.   GOV}.RNloIEN'I'
                                                              ..ITED STATES GoveRNMENT
                         PRI NTING OFfiCE
                        KU:"U<lG "'MERle... tNrOll)lED
                                                                            MEMORANDUM




DATE          November 4, 2011

RePLY To
 AnN OF       Chief Tech nology arficer

SUIlJECT'     Federal Digital System (FDsys) Independent Verlflcatlon and ValfdaUon
              (IV&V) - Fifteenth Quarterly Report

To:          Assistant Inspector General for Audits an<llnspectlons


Thank you for the opportunity 10 respond to the draft Fifteenth Quarterly Report
regarding GPO's Federal Digital System (FDsys) Below are the responses to the
recommendations put forth In the report.

Recommendations

       FOsys Master Test Plan :

       ,. Update the GPO FDsys Master Test Plan to convey a complete and
       comprehensive strategy that will delineate. defill8, and describe the tesbng
       approach \0 be fOf alllevelslphases of tesling that will be conduclea on the
       FDsys

       Response Concur IT&5 plans to make the requested adjustments to the FOsys
       Master Test Plan by 12/1/2011.


       FDs ys Program Management:

       2. Update the FDsys Program Management Plan and initiate the use of earned
       value analysis based on the ANSI-EIA-748-B-2007 , Standard for Earned Value
       Management Systems (EVMS).

       Response' Concur The update of the PMP IS being worl<ed In conjunction WIth
       the proposed and gradual integration of Earned Value Management processes
       Within thc Programs, Strategy, and Technology office. The addition of the Quality
       Assurance organization under the Office at the Chiet Technical Officer Will help
       drive the Integration of various EVM Pl"ocesses 10 help strengthen the overall
       process and provide additional performance and progress reporting mellics As
       the available EVM tools are put into place, PST p(ans on $Irengthenm9 Us atnhty
       10 demonstrale the value of effectrve and detailed projecl and program planning
       wrth an emphaSis on reporting and performance metncs Training Will be needed
       for sta ff on the use of EVMS 10 order to tead to Its implementation




                                                                                           Page 14 o r20
                                                                                    Appendix A.




3. Update schedule completion dates and percentage complete data 10 the
Release Schedules.

Response: Concur Schedule completion dales and percentage complete data in
the Master Schedule Is being reviewed and updated

4. Conduct more frequent internal Program Management Reviews to Include
FDsys Project personnel and stakeholders

Response Concur. Internal Program Management reviews will be conducted on
a feature development basis with relevant stakeholders A more defined
schedule will be established 10 prOVide stakeholders with an opportunity for
participaUOn in reviews.

5. Develop and implement a Quality Assurance program; a. Note that the OIG
previously closed a pnor recommendation (09-03-10, from IV&V Fourth Quarterly
Report) on this subject based on having received notificatioo (I e .• email
November 2010) thai a paSlbon description was being developed (for a Quality
Assurance Director position) The position description was to be used for the
express intent of hiring qualified personnel for thai role.

Response: GPO hired an IT&S Quality Director to oversee and manage Systems
Testing and Configuration Management, and the incumbent started work at GPO
on 814111 . We believe this addresses this recommendation and that It can be
closed.


6. Develop and implement a Quality Assurance Surveillance Plan to oversee
contracted work effort , to include designating existing staff or hiring expertise to
support the GPO PMO In monitOring the contracted work effort

Response: Partially concur. Working with the office of the Chief Human Capital
Officer, management agrees that an acqUisition-based Program and Project
Management training curriculum is important for bUSiness units working In
conjunction wllh Acqulsllions that develop. specify, Implement, and administer
programs heavlly-dependent on Information technology. Over the span of two
years (i.e., by 1 Jul 2013), all such Program Managers will be certified at Federal
AcqUisition Certification for Program and ProJecl Managers (FAC-PIPM).
EntryfApprentice. Mid-LeveUJoumeyman. or SenlorfExpert. based upon PG
grade level . In the spirit of the Office of Federat Procurement Policy (OFPP)
policy memorandum dated April 25, 2007. dependent upon available funding
over this IImeframe for necessary approval. This recommendation and our
response does nol involve or concem the IT Quality Assurance program
(Systems Testing and ConflQuralion Management) in any way.


7. Devefop end Implement an organizational change management program

Response Concur GPO is examining opportunities to Institute a governance
model at the !evello provide agency-level direction and oversight. with
improvements in documented change-control processes This approach has




                                                                                        rage 15 of20
                                                                                 Appendix A.




 slarted WIth the creation of the StrategIC Investment Committee (SIC), which
 reports drracUy 10 executNe management on elllSbng and new agency priOfities

 COOP System Design Document:

a. At this siage, the FOsys COOP Instance is considered 10 be operational,
however, to ensure thai key requirements have been addressed by the tesUng,
the FOsys PMQ must take sl eps to resolve the requirement discrepancies to
ensure that aU required testing was actually performed on the FOsys COOP
Insta nce IV&V recommends that the Release 1 Master ReqUirements, Release 1
Master Requirements RTVM and th e FDsya COOP SOD be recoflcile<l to ensure
consis l ency and to verify and validate thai all FDsys COOP requirements have
been sallsrlCd

Response: Concur. GPO will ensure that the FOsys COOP SOO does contain all
the relevant requirements. The PST OffiCe will take the lead on planning for this
Steps laken to perform tesllng on the FDsys COOP Instance Will be reviSited In
terms of documentalion. The Release 1 Master ReqUirements document has
changed over time based upon shifting stakeholder ~ulrements and Will be
reVisited and updated through stakeholder review discussions. ReqUirements
that are added, modified, Of deleted will be documented, and Will be tested as
part of COOP processes.


COOP TestIng :

9. Verification of Functional requirements should be performed USing the
Demonstration and/or Test venfication methods The use of the AnalysIs
\f9nficahon melhod shou!d be used sparingly and only when requirements can't
otherwise be tested or demonstrated When the Analysis verification method is
used. to simply cite text in a deSign document!s not sufficient to ensure that
requirements have actually been verified. As with Test 01" Demonstration
methods, the test case should have steps tha t Indicate how the reqUiremerrl
Is actually being verified. There needs to be an explanallon
describingfdelineating how the design documentation for exampte can be used to
vonry a particular requirement, i.e., verification steps need to be Included in the
test case

 Response Partially Concur The FDsys COOP instance was explicitly tested by
the FDsys PMO team. The FDsys COOP Instance at the backup site (ACF)
served as the production instance during February 16-22, 2011 (the primary
system was not accessible during that time), to ensure that the system could
handle FDsys requirements. GPO does not agree, as the recommendati on
seems to suggest, that every single requirement must be explicitly tested on a
COOP Instance of any application Indudlng FDsys The FDsys COOP test
conducted was WItnessed by IT&5 STB, 9Tld the test plan, report and results
were later revlElwed by tT&5 IT 5erurity as part of the C&A The resuHs Indicated
that the COOP Instance provides a reasonable , acceptable contingency instance
for FDsys operations when the pnmary sySlem IS out 01 service The FDsys team
and GPO busille$s management expliciUy accepted the funcbonal and
operationat capabilities of the FOsys COOP Instance Since Ihal time, In order to
supper! a re-lnclex actIVity on Production servers, the COOP Instance was




                                                                                      Page 16 o flO
                                                                                   AppendixA.




 utilized as the public-facing site from July 16th, 2011 to July 19th, 2011 . The
 pnmary system was not accessible at this lime This COOP event was a planned
maintenance activity for the Production Instance. COOP procedures were used
to In!Uate fanover and tailback processes, and wef8 successful in all efforts
related to COOP faaover and tailback. Therefore, GPO believes thai the FDsys
COOP Instance was adequately and reasonably tested and no further testing
(beyond normal, routine penodic conlingency testing on an annual basis) Is
reqUired or necessary to meet GPO directives and business requirements. We
believe this adequately addresses this recommendation and that It can be
dosed.


1D. The FOsys PMO should develop 8 solution and/or wori<around so that the
FOsys Production Instance and the FDsys COOP Instance can meet the 20,000
concurrent user requirement (RO-38) prior to the reti rement of GPO Access

Response; Partially concur The OI'lQlna! FDsys performance requirement for
20,000 concurrent users was not based on adua! experience WIth usage OIl the
elCisttng public site and did not adequately define the concept of 'concurrent
users" The operational elCperience with FOsys over the last two years Indicates
that the current system investment for its current performance peak capability is
a reasonable state for this GPO system (12,500 ·15,000 concurrent users based
on tile actual user profile of FDsys system logs), therefore GPO believes the
correct course of actiOn is to property define the FDsys performance
requirements. The PMO has begun this analysIs and wilt have the recommended
reqUirements by December 1, 2011 In addition, GPO Will coohnue to optimize
FDsys for public usage through leveraging the C(lOtent Deliv8f}l Network and
updallng the architecture for web content delivery In FY12 GPO will also
conhnue to monitor performance of FOsys from the user perspectlve to assure
capacity meets user needs, and scale as appropriate. We believe this addresses
this recommendation and that it can be closed.


FDsys Requ irements:

11 Before development begins on future releases (or Groups within Releases),
IV&V recommends the FDsys Program Management OffICe form a requIrements
Integrated Product Team (IPn or equivalent that consIsts of members of the
system and software engineering teams, and members 0( the test team This IPT
should evaluate and review each requirement 10 ensure they meet the coteria
specdled in IEEE standards and rework requirements thai were found to have
Issues as identified In the attached file. Additionally, the IPT IhOl./ld ensure that
the FDsys Requirements Master Ust and the RTVM are In agreement

Response ConCUl" Currently the PMO and FDsys design and development team
work closely with Systems Test Branch (STB) at the statt of a release to
determIne requu-ements and fixes thai will be addressed Within tile release. PMO
will wor1< with STB 10 formalize and document this process. with a focus Ofl
reVIeWIng and evaluabng thaI the associated reqUifements are In a slale to be
rully lestable by STB




                                                                                        Page 17 ofl O
                                                                               Appendix A.




If I can answer any questions or prOVIde additional comments, please contact
me




Richard G. DavIs
Chief Technology Officer




                                                                                 Page 18 0f 20
                    Appendix B. Status of Recommenda::.t: i:.:.
                                                            o"'n.:.s_ _ _ _


    (Fina l Re por t Only)

    Recomm endation No.        Resolved   Unresolved    Ope n/EC D'   Closed
                1                   x                   12/1/2011
                2                   x
                3                   x
                4
                5
                6
                                   ...,
                                    x

                                                         7/1/2013
                7                  x
-               8
                9
               10
                                   ..
                                   x

                                   x                    12/1/2011
               11            _L    x                                           -
*Estimated Completion Date
    •• Partially Reso lved




                                                                 Page 19   ono
                  Appendix C. Re port Distribution

Assistant Public Printer, Operations
Assistant Publ ic Pr inter, Superintendent of Documents
ChiefofStaff
Chief Information Officer
Chief Technology Officer
General Counsel
Acquisitions Director




                                                          Page 20 or20
